No. 20-1229

 

 

In THE
Supreme Court of the United States

JAMES W. ROBERTSON, SR.,

Petitioner,
ve

INTRATEK COMPUTER, INCORPORATED,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,697 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 2, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
